No. 20-1088

 

 

IN THE

Supreme Court of the United States

DAVID and AMy CARSON, as parents and
next friends of O.C., and TRoy and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,

Petitioners,
ve

A. PENDER Makin, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF FOR AMICI CURIAE
THE SOUTHERN CHRISTIAN LEADERSHIP
CONFERENCE - MEMPHIS CHAPTER,
REV. VERNON HORNER, DEBORAH L.
WOMACK, DEACON GEORGE WOMACK,
AND REV. STEVEN JOINER
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,776 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
